No. 19-1299

In the

Supreme Court of the United States
—————♦—————
THE CHAMBERLAIN GROUP, INC.,
Petitioner,
v.

TECHTRONIC INDUSTRIES CO.,
TECHTRONIC INDUSTRIES NORTH AMERICA, INC.,
ONE WORLD TECHNOLOGIES, INC.,
OWT INDUSTRIES, INC., RYOBI TECHNOLOGIES, INC.,
Respondents.
—————♦—————
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
—————♦—————
SUPPLEMENTAL APPENDIX
—————♦—————
Jason C. White
William R. Peterson
Michael J. Abernathy
Counsel of Record
Sanjay K. Murthy
MORGAN, LEWIS & BOCKIUS LLP
1000 Louisiana St., Ste. 4000
Nicholas A. Restauri
MORGAN, LEWIS & BOCKIUS LLP
Houston, TX 77002
77 W. Wacker Drive, Ste. 500
(713) 890-5188
william.peterson
Chicago, IL 60601
(312) 324-1000
@morganlewis.com
Julie S. Goldemberg
MORGAN, LEWIS & BOCKIUS LLP
1701 Market Street
Philadelphia, PA 19103
(215) 963-5095

Sean C. Cunningham
Erin P. Gibson
Stanley J. Panikowski
DLA PIPER LLP (US)
401 B Street, Suite 1700
San Diego, CA 92101
(619) 699-2700
Counsel for Respondents

TABLE OF AUTHORITIES
Page
Patent US 7,224,275 B2, May 29, 2007 ......................................... App. II-1

App. II-i

I11111
11111111
II!
11
1111111imm!lin
Ill
1111
1111
Ill
(12)United States Patent

(10) Patent No.:
(45) Date of Patent:

Fitzgibbon

(54) MOVABLE BARRIER OPERATORS STATUS
CONDITION TRANSCEPTION APPARATUS
AND METHOD
(75) Inventor:

James J. Fitzgibbon, Batavia, IL (US)

(73) Assignee: The Chamberlain Group, Inc.,
Elmhurst, IL (US)
(C) Notice:

Subject to any disclaimer, the terrni of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 162 days.

(21) App!. No.: 10/447,663
(22)

Filed:

May 29, 2003

(65)

Prior Publication Data
US 2004(0239496 Al

Dec. 2, 2004

(51) Int. Cl.
608B 1/08
(2006.01)
(2006.01)
GO8C 19/00
E051, 15/20
(2006.01)
(52) U.S. Cl.
340/539.26; 340/545.1;
340/539.1; 340/825.69; 340/825.72; 340/686.1;
49/25; 49/31
(58) Field of Classification Search ...........340(825.69,
340/825.72, 539.26; 49/25, 31
See application file for complete search history.
(56)

References Cited
A
1071971 Conigliaro
A
7(1974 Willis
A
8'1974 Rempel et al.
A * 91974 Fecteau
A
2(1978 Hartley
A
3'1978 Young
A
111978 Cashman
A * 81984 Duhame

140/505

340/539,22
336/83
340/825.69

140/521
340/5.2
340/686.1
340/545.1
340/539.25

OTHER PUBLICATIONS
Appl. No. 10/226,854, filed Aug. 23, 2002, Doyle.
British Search Report for British patent application GB0412067.1
dated Oct. 4, 2004.

cited by examiner
Primary Examiner—Donnie L. Crosland
(74) Attorney, Agent, or Finn—Fitch, Even, Tabin &
Flannery
ABSTRACT

A movable barrier operator (10) has a wireless status condition data transmitter (15) that wirelessly transmits status
condition messages to one or more remote peripherals (20).
The latter can in turn use this status information to effect
their own functionality and supported. features.
31 Claims, 2 Drawing Sheets

140321

o 16

10

L!

May 29, 2007

A
8/1985 Shigemitsu et al.
A
4/1986 Schmitz
A
6/1988 Heitschel et al.
A
4/1989 Kenzelmann et al.
A
9/1989 Binkley
A
10/1989 Benages
A
2/1990 Nishio
A
9/1990 Llewellyn
A * 3/1995 Doyle et al.
A
6/1997 Willmott et al.
A * 8/1998 Chang
A * 5/1999 Sur= et al.
A
2/2000 Farris et al.
A
4/2000 Waggamon et al.
A
6/2000 Paterno
Bl* 2/2001 Morris
Bl* 4/2001 Davis et al.
BI
2/2002 Moss
B2* 7/2003 Tsui
Al* 12/2002 Kirkland et al.
Al
2/2003 Mays
Al
4/2003 Tsui
Al* 10/2004 Peterson et al

(57)

U.S. PATENT DOCUMENTS
3,611,333
3,827,038
3,831,158
3,833,895
4,074,269
4,090,182
4,124,847
4,464,651

4,536,751
4,583,081
4,750,118
4,819,379
4,868,543
4,872,210
4,905,279
4,954,810
5,402,105
5,635,913
5,798,681
5,903,226
6,025,785
6,049,289
6,070,361
6,184,787
6,218,956
6,346,889
6,597,291
2002/0180600
2003/0029579
2003/0076235
2004/0212498

LS 7,224,275 132

12

(15

WIRELESS STATUS
CONDITION DATA
TRANSMITTER

MOVABLE
BARRIER
INTERFACE

CONTROLLER

I r—
1 !
1 I
L L

STATUS
CONDITION
SENSOR(S)

i
:
!
I

I
1
'
I

i

MOVABLE
BARRIER
7-13

DEFENDANT'S )
EXHIBIT
DX-1
CG16097_000000150

DX-001

Appx213
1

App. II-1
II -1
App.

U.S. Patent

May 29, 2007

Sheet 1 of 2

US 7,224475 B2

16
111

(15
WIRELESS STATUS
CONDITION DATA
TRANSMITTER

121
MOVABLE
BARRIER
INTERFACE

CONTROLLER
I1
,
STATUS
I j
' CONDITION'1
I SENSOR(S) i )

I
1
I

MOVABLE
BARRIER

FIG. 1
20-,
r
21

10-\
MOVABLE
BARRIER
OPERATOR

VVIRELESS
RECEIVER
22-1

FIG. 2

2 10
I
L-

REMOTE
PERIPHERAL(S)

`y7

If

PERIPHERAL
CONTROLLER
_J

(MOVABLE BARRIER OPERATOR

30

31-1

DETECT PREDETERMINED
OPERATIONAL STATUS
CONDITION

32
FORM MESSAGE
(WITH OPERATOR IDENTIFIER) I
33-\

AUTOMATICALLY TRANSMIT
STATUS CONDITION MESSAGE

FIG. 3

CG16097_000000151

DX-001-002
Appx214

App.
-2
App. II
II-2

U.S. Patent

May 29, 2007

US 7,224475 B2

Sheet 2 of 2

42-43-\

41-\

It)

r FIELD 1

• 4 4

FIELD N
40

FIG.'!
REMOTE PERIPHERAL

51

52'1

50
YES

EFFECT CORRESPONDING
PREDETERMINED ACTION

FIG. 5

MOVABLE
BARRIER
OPERATOR
CONTROLLER
22--\

61
VVIRELESS
RECEIVER

62-\
FIEMOTE
PERIPHERAL
CONTROLLER

W1RELESS
TRANSMITTER

FIG. 6
CG16097_000000152

DX-001-003
Appx215
-11

11-3
App. II-3

1

US 7,224,275 B2

MOVABLE BARRIER OPERATORS STATUS
CONDITION TRANSCEPTION APPARATUS
AND METHOD

2

various peripherals. This in turn can result in undesired
exposed wiring and/or an undesired increase of installation
time.
It is also likely in some installation settings that the
5 physical interface of a given movable bather operator,
TECHNICAL. FIELD
regardless of how well conceived in the first instance, may
nevertheless fail to permit compatible support of a given
This invention relates generally to movable barrier operaperipheral. For example, a given user may wish to provide
tors.
a quantity of individual lighting platforms that exceeds the
10 number of lights that are supported by the physical interface
BACKGROUND
for a given movable barrier operator. As another example,
another given user may wish to support a relatively new
Movable barriers of various kinds are known in the art,
function, such as an alarm that sounds when a possibly
including but not limited to horizontally and vertically
unauthorized individual enters an opened entryway, that is
sliding barriers, vertically and horizontally pivoting barriers,
single-piece barriers, multi-piece or segmented barriers, 15 not specifically supported by a given movable barrier operator.
partial barriers, complete barriers, rolling shutters, and variFor these and other reasons, prior art movable barrier
ous combinations and permutations of the above. Such
operators are often partially or wholly inadequate to suit the
barriers are typically used to control physical and/or visual
present and/or developing needs of a given application.
access to or via an entryway (or exit) such as, for example,
20
a doorway to a building or an entry point for a garage.
BRIEF DESCRIPTION OF THE DRAWINGS
In many cases, a motor or other motion-imparting mechanism is utilized to effect selective movement of such a
The above needs are at least partially met through provimovable barrier. A movable barrier operator will then ususion of the movable barrier operator status condition transally be utilized to permit control of the motion-imparting
25
mission apparatus and method described in the following
mechanism. In some cases a user may control the movable
detailed description, particularly when studied in conjuncbarrier operator by indicating a selection via one or more
tion with the drawings, wherein:
control surfaces that are physically associated with the
movable barrier operator. In other cases such control can be
FIG. 1 comprises a block diagram as configured in
effected by the transmission of a wireless remote control 30 accordance with various embodiments of the invention;
signal to the movable barrier operator.
FIG. 2 comprises another block diagram as configured in
Over time, the capabilities of and features supported by
accordance with various embodiments of the invention;
such movable barrier operators has expanded to include
FIG. 3 comprises a flow diagram as configured in accoractions other than merely opening and closing a corresponddance with an embodiment of the invention;
ing movable barrier. Some movable barrier operators pro- 35
FIG. 4 comprises a schematic view of a message packet
vide ambient lighting. Some movable barrier operators can
as configured in accordance with various embodiments of
sense the likely presence of an obstacle in the path of the
the invention;
movable bather and take an appropriate corresponding
FIG. 5 comprises a flow diagram as configured in accoraction. And some movable barriers have a plurality of
operating modes to facilitate differing control strategies (for 40 dance with an embodiment of the invention; and
FIG. 6 comprises a block diagram as configured in
example, many movable bather operators have a so-called
accordance with an alternative embodiment of the invention.
vacation mode that prompts use of a differing set of operational states when the user leaves the movable barrier
Skilled artisans will appreciate that elements in the figures
operator for an extended period of time or a learning mode
are illustrated for simplicity and clarity and have not necthat places the movable barrier operator into a program- 45 essarily been drawn to scale. For example, the dimensions of
mable state to permit manual and/or automatic setting or
some of the elements in the figures may be exaggerated
selection of one or more operational parameters such as a
relative to other elements to help to improve understanding
of various embodiments of the present invention. Also,
maximum force setting).
common but well-understood elements that are useful or
Installation settings and needs can vary considerably from
one place to another. Notwithstanding this truism, movable 50 necessary in a commercially feasible embodiment are typically not depicted in order to facilitate a less obstructed view
barrier operator manufacturers prefer to seek the economies
of these various embodiments of the present invention.
of scale that attend the manufacture and distribution of
movable barrier operator platforms that will provide satisDETAILED DESCRIPTION
factory service in a wide variety of settings. As a result,
some movable barrier operators are manufactured with the 55
ability to support a wide range of functionality. UnfortuGenerally speaking, pursuant to these various embodinately, this often means that a physical interface must be
ments, a movable barrier operator has a controller having a
provided to support numerous potentially utilized peripheral
plurality of potential operational status conditions, a movdevices (including but not limited to sensors, control surable barrier interface that operably couples to the controller,
faces, alarms, displays, ambient and/or spot lighting, and so 60 and a wireless status condition data transmitter that is
forth). This physical interface can represent undesired addioperably coupled to the controller as well. If desired, one or
tional cost when part of the interface goes unused in a given
more status condition sensors can be utilized to sense one or
installation.
more predetermined conditions and to provide corresponding indicia to the controller. In a preferred embodiment, the
Furthermore, even when a given installation includes use
of all potentially supported peripherals, the physical instal- 65 wireless status condition data transmitter transmits a status
condition signal that corresponds to at least one of the
lation itself will often necessarily include a physical signalpotential operational status conditions. If desired, the status
ing path to couple the movable barrier operator to the

0G16097_000000153

DX-001-004
Appx216
11-4
App. II-4
I

3

US 7,224,275 B2

condition signal can be combined with an identifier that
correlates (uniquely or relatively uniquely) to the controller
and/or the movable barrier operator. Such an identifier can
serve to permit a receiving device to process as appropriate
the status condition information.
Such status condition information can be received and
processed, in a preferred embodiment, by a remote peripheral device (such as, but not limited to, a display, an alarm,
a lighting control unit, and so forth). If desired, although the
status condition information does not comprise a control
signal as such (meaning that the status condition information
does not comprise an instructional signal but rather presents
only informational content), the remote peripheral can be
configured to process the data content to thereby nevertheless effect a desired corresponding action.
So configured, a given movable barrier operator can be set
to wirelessly transmit a wide variety of simple messages
regarding its operational states. Such information can then
be utilized to compatibly support a wide range of presently
desired and later-developed features and functionality. If
desired, the overall cost of a given platform can be reduced
as the need to over-design a physical peripheral interface
becomes diminished. Furthermore, such a platform has an
improved opportunity to remain compatible with evolving
features and legal and/or regulatory requirements to thereby
promote a longer useful service life.
Referring now to the drawings, and in particular to FIG.
1, in a preferred embodiment a movable barrier operator 10
will include a controller 11, a movable barrier interface 12,
and a wireless status condition data transmitter 15. The
controller 11 will preferably comprise a programmable
platform (such as, for example, a microprocessor, a microcontroller, a programmable logic or gate array, or the like)
that can be readily programmed and configured in accordance with the various teachings set forth herein and as is
generally well understood in the art. The movable barrier
interface 12 couples to and is controlled by the controller 11
and further couples to a movable barrier 13. Various mechanisms now known or hereafter developed can serve as the
movable barrier interface 12 including various drive mechanisms, clutch arrangements, and so forth. In general, the
movable banier interface 12 serves to selectively impart
motion to the movable barrier 13 to cause the movable
barrier 13 to move to a desired position (such as, for
example, a fillly opened or a fully closed position) and/or to
restrict or prohibit such motion (as when movement of the
movable barrier may be the result of gravity and the movable
barrier interface 12 serves in part to prevent such movement
until such movement is desired). Such controllers 11 and
movable barrier interfaces 12 are well understood in the art,
and therefore, for the sake of brevity and the preservation of
focus, additional explanatory detail regarding such mechanisms will not be provided here.
The wireless status condition data transmitter 15 operably
couples to an output of the controller 11. This transmitter 15
can be of any variety as may suit the needs of a given
application. For example, the transmitter 15 can comprise a
radio frequency carrier-based transmitter, an infrared carrier-based transmitter, or a sonic carrier-based transmitter
(all being generally well understood in the art). In a similar
fashion, the transmission power, modulation type, signaling
protocol, and other attendant characterizing features and
practices of the wireless transmitter 15 can again be as
desired to suit the needs of a particular setting. In a preferred
embodiment, this transmitter 15 will comprise a relatively
low power transmitter such that the signals it broadcasts are
only receivable within a relatively constrained area (such as,

5

io

is

20

25

30

35

ao

45

4

for example, an effective range of 100 meters, 500 meters,
1,000 meters, or the like). Again, such transmitters are well
understood in the art and hence further elaboration here will
not be provided.
In a typical embodiment, the controller 11 will have a
plurality of potential operational status conditions. For
example, the controller 11 might have two or more of the
following potential operational status conditions:
moving the movable barrier in a first direction (such as
towards a closed position);
moving the movable barrier in a second direction (such as
towards an opened position);
reversing movement of the movable barrier (for example, to
alter movement from a closed position and towards an
open position);
halting movement of the movable barrier;
detecting a likely presence of an obstacle (such as a person
or pet) in the likely path of movement of the movable
barrier;
detecting a likely proximal presence of a human (such as a
person in the vicinity of the controller);
detecting a likely proximal presence of a compatible transmitter (such as a corresponding remote control transmitter
for the movable barrier operator);
receiving a wireless remote control signal (as sourced, for
example, by a handheld remote control device);
receiving a wireline remote control signal (as sourced, for
example, by a wall mounted remote control device);
receiving a learning mode initiation signal (via, for example,
a switch provided for this purpose on the movable barrier
operator housing);
a lighting status change (as when, for example, the controller
switches ambient lighting in a garage to an off condition
a predetermined period of time following closure of the
movable barrier);
a vacation mode status change (as when a user effects this
change via a switch provided for this purpose);
detecting a likely proximal presence of a vehicle;
detecting the identification of a proximal vehicle (as when,
for example, the vehicle or some corresponding agent
device transmits an identifying signal); and
receiving an operating parameter alteration signal (via, for
example, an integral or remote switch or other user
interface).

It will be understood and appreciated that these are intended
for illustrative purposes only, and that a given controller may
have only a subset of these status conditions, a combination
of some or all of these status conditions with other status
50 conditions, or a set of wholly different potential status
conditions.
Depending upon the needs of the setting, the controller 11
can be self-aware of such operational status conditions (as
when, for example, the controller 11 is aware that it has
55 switched a given ambient light fixture on or off) or the
controller 11 can be provided with externally developed
information regarding the condition. To effect the latter, it
may be desirable in some settings to use one or more status
condition sensors 14. Such sensors 14 can be disposed
60 integral to the movable barrier operator 10 as suggested by
the illustration in FIG. 1 and/or can be configured as
remotely disposed entities to suit the requirements of a
specific application.
Pursuant to these various embodiments, the wireless
65 status condition data transmitter 15 serves to transmit a
status condition signal that represents a present operational
status condition of the controller 11. In a preferred embocli-

0G16097_000000154

DX-001-005
Appx217
I

11-5
App. II-5

5

US 7,224,275 B2

ment, this transmission occurs automatically in response to
when the controller 11 detects at least one predetermined
condition, which predetermined condition preferably, but
not necessarily, corresponds to the present operational status
being reported via the transmission. Another option would
be to have such information transmitted on a substantially
regular periodic basis. An illustrative (but not all-inclusive)
listing of potentially useful predetermined conditions might
include:
moving the movable barrier in a first direction;
moving the movable barrier in a second direction;
reversing movement of the movable barrier;
halting movement of the movable barrier;
detecting a likely presence of an obstacle to movement of the
movable barrier;
detecting a likely proximal presence of a human;
receiving a wireless remote control signal;
receiving a wireline remote control signal;
receiving a learning mode initiation signal;
receiving an operating parameter alteration signal:
expiration of a predetermined duration of time; and
attainment of a predetermined point in time.
In a preferred approach, this status condition signal does
not constitute a control signal per se. That is to say, the
controller 11 does not necessarily source this status condition signal as a specific part of implementing a control
strategy. As an example, the controller 11 would not source
this status condition signal to specifically cause a light to be
switched on upon receipt of the signal. Instead, the controller 11 sources this status condition signal to specify that it
has, through some other means, initiated a control action or
strategy to cause a light to be switched on. The status
condition signal then simply reflects the actions being taken
by the controller 11 and/or the other operational conditions
being experienced by the controller 11.
If desired, such status condition data signals can also be
transmitted by the controller 11 via a wireline connection 16.
Referring now to FIG. 2, the status condition signals as
transmitted from such a movable barrier operator 10 are
preferably received by a remote peripheral 20 having a
corresponding compatible wireless receiver 21 that operably
couples to a peripheral controller 22. The remote peripheral
20 itself can comprise any of a wide variety of platforms,
including but certainly not limited to an informational
display, a remote access interface, a light fixture, a timer
apparatus, an alarm unit, and so forth. So configured, the
remote peripheral 20, upon receiving status condition information from the movable barrier operator 10 via the wireless
transmissions being sourced by the latter, can process that
information in accord with a desired end result. For
example, the remote peripheral 20 can serve to simply
further communicate such status information via a display
such as an alphanumeric display, a graphic images display,
one or more signal lights and/or corresponding indicative
audible sounds, and so forth.
As another example, the remote peripheral 20 can process
such status information to then itself ascertain a particular
resultant course of activity. To illustrate, the remote peripheral can comprise a peripheral lighting unit that controls the
provision of ambient lighting in a particular area (such as in
a yard area outside the entrance to a residential garage).
Upon receiving a status condition signal from the movable
barrier operator 10 indicating that the movable barrier
operator 10 has switched on its own lights, the remote
peripheral 20 can then itself determine to also switch on its
own lights. In a similar fashion, upon being informed that

5

10

Is

20

25

ao

45

so

55

60

65

6

the movable bather operator 10 has switched its lights off,
the remote peripheral 20 can also decide to switch its own
lights to an off condition.
So configured, it can be seen that when a movable bather
operator 11 provides wireless signals that represent one or
more status conditions, a wide variety of known and hereafter developed remote peripherals 20 can be readily configured to leverage the receipt of such information for a
variety of other purposes. Such remote peripherals can
farther supplement or extend the functionality of the movable barrier operator 10 itself (as when the remote peripheral
20 simply activates additional lighting to complement the
lighting strategy of the movable barrier operator 10) or they
can facilitate functionality that is above and beyond the
control architecture of the movable barrier operator 10. To
support the latter, it is preferred that the movable barrier
operator 10 tend towards a relatively rich data stream where
at least many or even substantially all current operational
status conditions are regularly noted and transmitted to
thereby provide considerable informational grist for use by
the remote peripherals to thereby more likely facilitate
additional not-otherwise-supported functionality.
Referring now to FIG. 3, the movable barrier operator 10
related above serves as an appropriate platform to effect a
process 30 wherein one or more predetermined operational
status conditions are detected 31. In a preferable approach,
monitoring (and/or condition occurrence sensitivity) to support such detection occurs on a regular, or even substantially
constant, basis. It is also preferred that a plurality of operational status conditions be monitored such that a plurality of
differing operational status conditions can be so detected as
they occur. As noted earlier, such monitoring and detection
can result through one or more operational status condition
sensors and/or through the ability of the controller to selfmonitor its own operational status.
Upon detecting such a condition, the process 30 then
forms 32 a message that includes content to relate, reflect, or
otherwise correspond to the detected status condition. In an
optional approach, this message can be formed to include an
identifier for the movable barrier operator. For example, and
referring now momentarily to FIG. 4, such a message 40 can
include a first field 41 that includes a specific identification
number that is at least relatively unique to a given movable
barrier operator and that also includes one or more additional data fields. A single data field can be used if desired
to contain information that corresponds to the specified
status condition. As another approach, and as illustrated, a
plurality of fields (from field 1 41 to field N 43) can be
provided, with each field corresponding to, for example, a
particular monitored condition. The content of such fields
could then comprise one or more flags or other indicia to
indicate a particular present status for each such field. (In
another approach, such indicia could also provide an indication as to an anticipated or planned change to the status of
a given condition including, where available, an anticipated
or planned temporal schedule for effecting such changes.)
Upon receipt of such a message, a remote peripheral can
use the identifying information to determine whether the
received information corresponds to a relevant movable
barrier operator (i.e., to a movable barrier operator with
which the remote peripheral has been previously associated). When information from an unrecognized movable
barrier operator is received for whatever reason or due to
whatever circumstance, the remote peripheral can choose to
simply ignore the information and thereby avoid taking a
potentially inappropriate action.

0G16097_000000155

DX-001-006
Appx218
I CI

11-6
App. II-6

7

US 7,224,275 B2

thereby cause the movable barrier operator controller 11 to
Returning again to FIG. 3, the process 30 then provides
respond with, for example, an updated status condition data
for automatic transmission 33 of the status condition mesmessage.
sage via the carrier/transmitter of choice and as otherwise is
I claim:
generally described above. It would of course be possible to
1. A movable barrier operator comprising:
transmit other signals and messages via the transmitter too, 5
a controller having a plurality of potential operational
if desired. For example. specific control signals could also
status conditions defined, at least in part, by a plurality
be transmitted (either as part of the above-described message or as a separate message) as an integral part of the
of operating states;
a movable barrier interface that is operably coupled to the
overall control strategy of the movable barrier operator.
controller;
In a similar fashion, and referring now to FIG. 5, the 10
a wireless status condition data transmitter that is operabove-described remote peripheral 20 can serve as a suitable
ably coupled to the controller, wherein the wireless
platform to effect a corresponding process 50 wherein the
status condition data transmitter transmits a status
process 50 detects 51 for the reception of status condition
condition signal that:
signals and, upon receiving such a signal, uses the correcorresponds to a present operational status condition
sponding data to thereby permit effectuation 52 of a corre- is
defined, at least in part, by at least two operating
sponding predetermined action. As already noted, the corstates from the plurality of operating states; and
responding predetermined action (or actions) can be many
comprises an identifier that is at least relatively unique
and varied. A non-exhaustive illustrative listing could
to the movable barrier operator, such that the status
include:
condition signal substantially uniquely identifies the
activating a light (either ambient lighting and/or signaling 20
movable bather operator.
indicia);
2. The movable barrier operator of claim 1 and further
deactivating a light;
comprises at least one condition status sensor that is operactivating an audible alarm;
ably coupled to the controller.
deactivating an audible alarm;
25
3. The movable barrier operator of claim 2 wherein the
manipulating a locking mechanism;
wireless status condition data transmitter transmits data that
providing a corresponding information display;
corresponds to the at least one condition status sensor.
allowing remote modification of configuration variables;
4. The movable barrier of claim 1 and further comprising
and
a receiver that is operably coupled to the controller.
initiating a timing mechanism.
30
5. The movable barrier operator of claim 1 wherein the
Other possibilities of course exist. It should also be clearly
plurality of operating states includes at least one of:
understood that functions not yet conceived or enabled may
moving a movable barrier in a first direction;
also be well served and supported by these embodiments, as
moving the movable barrier in a second direction;
these embodiments are not dependent upon the movable
reversing movement of the movable barrier;
barrier operator having an already-existing native ability to 35
halting movement of the movable barrier:
support such functionality. Instead, by providing movable
detecting a likely presence of an obstacle to movement of
barrier operator status indicia, the remote peripherals are
the movable barrier;
themselves able to intuit when circumstances are appropriate
detecting a likely proximal presence of a human;
to initiate or restrain their own functionality and features.
receiving a wireless remote control signal:
Those skilled in the art will recognize that a wide variety 40
receiving a wireline remote control signal;
of modifications. alterations, and combinations can be made
receiving a learning mode initiation signal;
with respect to the above described embodiments without
a lighting status change;
departing from the spirit and scope of the invention, and that
a vacation mode status change;
such modifications, alterations, and combinations are to be
detecting a likely proximal presence of a vehicle;
viewed as being within the ambit of the inventive concept. 45
detecting the identification of a proximal vehicle; and
For example, if desired, the movable barrier operator could
receiving an operating parameter alteration signal.
also wirelessly transmit control signaling in addition to the
6. The movable barrier operator of claim 1 wherein the
status condition information. Though such control signaling
wireless status condition data transmitter comprises a radio
may not offer a came degree of long term flexibility as the
frequency carrier-based transmitter.
preferred approaches set forth above, such control signaling 50
7. The movable barrier operator of claim 1 wherein the
may nevertheless serve to facilitate one or more presently
wireless status condition data transmitter comprises an infraknown and highly desired features or functions.
red carrier-based transmitter.
As another example, and referring now to FIG. 6, a
8. The movable barrier operator of claim 1 wherein the
remote peripheral controller 22 can also couple to a wireless
wireless status condition data transmitter comprises a sonic
transmitter 62. In turn, the movable barrier operator con- 55 carrier-based transmitter.
troller 11 can further couple to a wireless receiver 61 that
9. The movable barrier operator of claim 1 wherein the
serves to compatibly receive messages as transmitted by the
controller includes transmitter control means for automatiremote peripheral controller 11. This link can mirror the
cally causing the wireless stares condition data transmitter to
carrier/modulation/protocol mechanism described above for
transmit a data signal.
the movable barrier operator-to-remote peripheral link, or it 60
10. 'rhe movable barrier operator of claim 9 wherein the
can be different. As an illustrative example, the movable
transmitter control means automatically causes the wireless
barrier operator can have a wireless status condition data
status condition data transmitter to transmit the status contransmitter that uses an infrared carrier and a receiver that
dition data signal in response to detecting at least a first
uses a radio frequency carrier. So configured, a variety of
predetermined condition.
useful purposes can be served. As one example, the remote 65
11. The movable barrier operator of claim 10 wherein the
peripheral controller 22 can query the movable barrier
first predetermined condition comprises at least one of the
operator controller 11 via this communication mechanism to
controller:

0G16097_000000156

DX-001-007
Appx219
1

11-7
App. II-7

9

US 7,224,275 B2

10

moving a movable barrier in a first direction;
18. The method of claim 14 wherein automatically wirelessly transmitting a status condition signal includes automoving the movable barrier in a second direction;
matically wirelessly transmitting a status condition signal
reversing movement of the movable barrier,
using at least one of:
halting movement of the movable barrier;
a radio frequency carrier;
detecting a likely presence of an obstacle to movement of 5
a sonic carrier, and
the movable barrier,
an optical carrier.
detecting a likely proximal presence of a human;
19. The method of claim 18 and Iiirther comprising also
receiving a wireless remote control signal;
using a wireline connection to transmit at least a portion of
receiving a wireline remote control signal;
o the status condition signal.
receiving a learning mode initiation signal;
20. The method of claim 14 wherein automatically wirereceiving an operating parameter alteration signal;
lessly transmitting a status condition signal includes autoexpiration of a predetermined duration of time; and
matically wirelessly transmitting a status condition signal
attainment of a predetermined point in time.
that includes an identifier that corresponds to the movable
12. The movable barrier operator of claim 4 wherein the is barrier operator.
controller includes transmitter control means for automati21. The method of claim 14 and further comprising: at a
cally causing the wireless status condition data transmitter to
remote peripheral apparatus:
transmit a status condition data signal in response to the
receiving the status condition signal;
receiver receiving at least a first predetermined signal.
in response to receiving the status condition signal, effect13. The movable barrier operator of claim 12 wherein the 20
ing a predetermined action that corresponds to the
wireless data transmitter comprises an infrared carrier-based
status condition signal.
transmitter and the receiver comprises a radio frequency
22. The method of claim 21 wherein the predetermined
carrier-based receiver.
action includes at least one of:
14. A method comprising:
activating a light;
at a movable barrier operator:
25
deactivating a light;
detecting at least one predetermined condition as correactivating an audible alarm;
sponds to a present operational status defined, at least
deactivating an audible alarm;
in part, by at least two operating states, of the movable
manipulating a locking mechanism;
barrier operator;
providing a corresponding information display;
in response to detecting the at least one predetermined 30
allowing remote modification of configuration variables;
condition, automatically wirelessly transmitting a staand
tus condition signal that:
initiating a timing mechanism.
represents the present operational status defined, at
23. The method of claim 14 wherein detecting at least one
least in part, by the at least two operating states; and
predetermined condition includes receiving a wireless signal
comprises an identifier that is at least relatively unique 35 that includes, at least in part, an inquiry signal.
to the movable barrier operator, such that the status
24. An apparatus comprising:
condition signal substantially uniquely identifies the
a movable barrier operator having:
movable barrier operator.
a controller having a plurality of potential operational
15. The method of claim 14 wherein detecting at least one
status conditions defined, at least in part, by a plurality
predetermined condition includes detecting at least one of: 40
of operating states; and
moving a movable barrier in a first direction;
a wireless status condition transmitter operably coupled to
the controller, wherein the wireless status condition
moving the movable barrier in a second direction;
data transmitter transmits a status condition signal that:
reversing movement of the movable barrier,
corresponds to a present operational status condition
halting movement of the movable barrier;
defined, at least in part, by at least two operating
detecting a likely presence of an obstacle to movement of 45
states from the plurality of operating states; and
the movable barrier;
comprises an identifier that is at least relatively unique
detecting a likely proximal presence of a human;
to the movable barrier operator, such that the status
receiving a wireless remote control signal;
condition signal substantially uniquely identifies the
receiving a wireline remote control signal;
50
movable barrier operator;
receiving a learning mode initiation signal;
a remote peripheral having:
a lighting status change;
a wireless receiver that is communicatively compatible
a vacation mode status change;
with the wireless transmitter;
detecting a likely proximal presence of a vehicle; and
a peripheral controller that is operably coupled to the
receiving an operating parameter alteration signal.
55
wireless receiver.
16. The method of claim 14 wherein detecting at least one
25. The apparatus of claim 24 wherein the plurality of
predetermined condition includes:
operating states includes at least one of:
monitoring a plurality of operational status conditions;
moving a movable barrier in a first direction;
detecting the at least one predetermined condition when
moving the movable barrier in a second direction;
any of the plurality of operational status conditions 60
reversing movement of the movable barrier;
occurs.
halting movement of the movable barrier;
17. The method of claim 14 wherein detecting at least one
detecting a likely presence of an obstacle to movement of
predetermined condition includes at least one of:
the movable barrier,
receiving sensor information from a sensor that senses the
detecting a likely proximal presence of a human;
at least one predetermined condition; and
65
receiving a wireless remote control signal:
monitoring an operating state of the movable barrier
receiving a wireline remote control signal:
operator.
receiving a learning mode initiation signal;

0G16097_000000157

DX-001-008
Appx220

11-8
App. II-8

11

US 7,224,275 B2

12

a lighting status change;
nicatively compatible with the wireless receiver of the
a vacation mode status change;
movable barrier operator and that is operably coupled to the
detecting a likely proximal presence of a vehicle; and
peripheral controller.
29. The apparatus of claim 24 and further comprising a
receiving an operating parameter alteration signal.
26. The apparatus of claim 24 wherein the remote periph- 5 plurality of the remote peripherals.
30. The apparatus of claim 24 wherein the peripheral
eral comprises at least one of:
controller includes reception means for determining when a
an informational display;
wireless signal as received from the movable barrier operaa light fixture;
tor includes an identifier that corresponds to the movable
a remote access interface;
0 barrier operator.
a timer apparatus; and
31. The apparatus of claim 30 wherein the reception
an alarm.
means further provides a first control signal when the
27. The apparatus of claim 24 wherein the movable
wireless signal does include the identifier and does not
barrier operator further includes a wireless receiver that is
provide the first control signal when the wireless signal does
operably coupled to the controller.
15 not include the identifier.
28. The apparatus of claim 27 wherein the remote periph*
*
*
*
eral further includes a wireless transmitter that is conunu

0G16097_000000158

DX-001-009
I

Appx221

11-9
App. II-9

